                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11   Case Nurnber:I-05020011
                                                                                 11          Page 1 of 1



                  In July 2004, the Office of Inspector General initiated a proactive review of participant
          support funds allocated to NSF awards. Participant support costs are expended to or on the
          behalf of participants or trainees (but not employees) for stipends, subsistence, travel and
                                                                                                    I


          registration fees for conferences, symposiums andlor workshops. To that end, OIG randomly
          selected this award1for review.
                  Our initial review of the documentation submitted by the universitg revealed a
          $30,000.00 re-allocation that did not appear to be approved by the program office and a
          miscellaneous charge of $150.00 from "Chico Hot Springs Lodge" which did not appear to be
          grant related. The preliminary inquiry was closed and an investigation was initiated in order to
          get further information from the university.
                  OIG contacted the university several times to ascertain if it had received permission from
          the program office to re-allocate participant support hnds as required by the NSF regulations.
          The principal investigator (pq3 on the grant contacted our office and asked if it would be helpful
          if he could come into our office and meet with staff.                                         I


                  On 28 April 2005, OIG interviewed the PI on the grant. The PI provided additional
          information as well as an in-depth explanation for the re-allocation and the miscellaneous charge.
           The PI stated that he sent several messages to various program officers4to get written
          permission to re-allocate the remaining funds. The PI provided the numerous emails he sent to
          the program office requesting permission to re-allocate the funds. The final email granted
          permission to re-allocate fbnds.
                  The PI provided further explanation for the $150.00 charge. The PI stated that one of the
          conference days was spent touring Yellowstone and surrounding attractions. One of the
          attractions visited was the Chico Hot Springs. The package purchased included a soak in the Hot
          Springs and a barbeque dinner under their tents. The PI stated that the facility must have broken
          the charges out on the invoice. This explanation is satisfactory.
          After reviewing the supplemental documentation and (both verbal and written) explanations of
          the miscellaneous expenditure, our office is satisfied that the University did not violate the
          participant support guidelines. Accordingly, this case is closed.




I'
 NSF OIG Form 2 (1 1/02)
